Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  Medicare Beneficiary Satisfaction
                With
   Supplemental  Health Insurance




                         SERVIC&$
                     #
                 &                  ~oq
             $
                                          JUNE   GIBBS BROWN
         #
         <                                Inspector   General
         %
         ‘3e+            ~
            J--                                  JANUARY 1997
              >      ‘*daa
                                                 0EI-04-93-O0154
                     OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-
452, is to protect the integrity of the Department of Health and Human Services programs
as well as the health and welfare of beneficiaries served by them. This statutory mission
is carried out through a nationwide program of audits, investigations, inspections,
sanctions, and fraud alerts. The Inspector General informs the Secretary of program and
management problems and recommends legislative, regulatory, and operational approaches
to correct them.



                       Office of Evaluation and Inspections

The Offik of Evaluation and Inspections (OEI) is one of several components of the Office
of Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the
public. The inspection reports provide fiidings and recommendations on the efficiency,
vulnerability, and effectiveness of departmental programs.

OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

REGION                                             HEADQUARTERS

Betty Apt, Team Leader                             Winnie Walker, Program Specialist
James Green, Contractor                            Stuart Wright, Program Specialist
Jackie Watkins, Program Analyst                    Brian Ritchie, Technical Suppoti
Joe Townsel, Program Analyst                       Barbara Tedesco, Statistician
Tamrny Hipple, Statistician


To obtain a copy of this report, call the Atlanta Regional Office at (404) 331-4108.
        ●,@Nm     ~
 ●
 *+’               %




         4
.*                       DEPARTMENT   OF HEALTH&   HUMAN   SERVICES        Office   of Inspector   General
:
ss
  8
      “+,+
                  L
         ~,”w
                                                                           Memorandum
                Date
                         ~AFl221997


                                         +’9”
                From	
                        June Gibbs Brown
                        Inspector Gener


                                         L?
                S@xt OIG Final Repor : “Medicare Beneficiary Satisfaction with
                     Supplemental Hea h Insurance, ” 0EI-04-93-O0154

                To	
                        Bruce C. Vladeck
                        Administrator
                        Health Care Financing Administration

                        During our 1995 survey of Medicare beneficiary satisfaction, we

                        asked 942 beneficiaries about their satisfaction with insurance

                        that supplements Medicare coverage. We did this at the request

                        of Health Care Financing Administration (HCFA) staff who

                        expressed an interest in this issue. Attached is our analysis

                        of beneficiary responses to the questions HCFA staff suggested

                        we include in our survey.


                        Our survey indicates that 84 percent of beneficiaries have

                        medical coverage in addition to Medicare, and they are

                        satisfied with their supplemental policies.  Most said they

                        would call the insurance company that issued the supplemental

                        policy if they had problems with their supplemental policies.


                        We hope you find this information useful. We are not making

                        recommendations, and there is no need for you to respond to

                        this. Nevertheless, we would be glad to receive any comments

                        you have. Also , if you have any questions, please contact me

                        or George Grob, Deputy Inspector General for Evaluation and

                        Inspections, or have your staff contact Mary Beth Clarke at

                         (202) 619-2481.


                        Attachment

PURPOSE

To determine beneficiary satisfaction with insurance that supplements Medicare.

BACKGROUND

During our 1995 survey of Medicare beneficiary satisfaction, we asked 942 beneficiaries

about their satisfaction with insurance that supplements Medicare coverage. Several

people in HCFA expressed an interest in this subject, and suggested questions for us to

include in our annual survey on beneficiary satisfaction.


In September 1995, we mailed a questionnaire to 1244 randomly-selected Medicare

beneficiaries for whom Part B claims had been filed in Calendar Year 1994. We excluded

from our sample beneficiaries who were enrolled in an HMO. A total of 942

beneficiaries returned completed questionnaires, for a response rate of 76 percent.


A summary of major findings of that survey follows.



BENEFICIARIES HAVE SUPPLEMENTAL INSURANCE

Eighty-four percent of the beneficiaries said they have medical coverage in addition to
Medicare.

The following
           table
               showsthetypesofsupplemental
                                        insurance
                                               beneficiariesthey

                                                         said

have.





II
 Insurance
        Through
              Curr.nt
                    orForrn.r
                           EnqioY.r                     I               42%                II
 Private Medicare        (Medigap)
                Supplemental
                                            32%
 Medicaid                                                                12%

 Other                                                                    3%
                                                                                           I
 *Percentages total more than 84% because some benejkiaries said they have more than one
 type ofinsurance.
BENEFICIARIES ARE SATISFIED

Eighty-eight percent of beneficiaries who have supplemental policies are satisfied with
them. Only 5 percent were dissatisfied.




                  53%   Very   $atisfiecf




                                                   2% Very Dissatisfied
                                                   3% Generally   Die6atie fied

                                                   % Neither Satiafied
                                                      nor Dissatisfied




                  35%   Generally     tlatisfled




        Responses of beneficiaries who have either Medigap or insurance
        through former or current employment are included.
BENEFICIARIES CALL INSURANCE COMPANIES IF PROBLEMS ARISE

Fifty-eight percent of beneficiaries said they would call the insurance company that
issued the policy if they had problems with their supplemental policies.

Few beneficiaries said they would call their State insurance, counseling, and assistance
offices.




 Insurance Company that Issued Policy                     I               58%
 Medicare Carrier                                                         17%
 State
     Insurance

            Commission                                                    10%
     Insurance,
 State              andAssistance

            Counseling,       OffIce                                       3%

 Other                                                                     2%

 Don’t Know                                                               11%
 “Responses of beneficiaries who have either Medigap or insurance through former or current�
 employment are included. Percentages total more than 100 % because some beneficiaries said�
 they would contact more than one a,qency.�




                                               3

